I

i

n
fhi

App. lb

!4

ORDERED that petitioner’s motion for

i'i

App. la
IN THE DISTRICT OF COLUMBIA COURT OF
APPEALS

i.. >

u
A

No. 18-AA-950

j.

LESLIE T. JACKSON
Petitioner,

Mgmt., Inc. v. Nat’l Delicatessen, Inc., 397 A.2d '

ittf
V?

2018 CRB
43

v.

DISTRICT OF COLUMBIA
DEPARTMENT OF EMPLOYMENT SERVICES,
Respondent.
BEFORE: Easterly and McLeese, Associate
Judges and Washington, Senior Judge.

summary reversal is denied. See Oliver T. Carr

v* S'
If
A

915 (D.C. 1979). It is
FURTHER ORDERED that respondent’s

it

cross-motion for summary affirmance is granted

It*

See Id. Our review of the application of res judi

!?
A

to successive administrative proceedings is de n>

a

See Oubre v. District of Columbia Dep’t of Emp’t

i
%

Servs., 630 A.2d 699, 702 (D.C. 1993). Petitione

h

arguments about the nature, import, and correc

It
*

a
a

!r

JUDGMENT
On consideration of petitioner’s motion for

. V!»*

iuA'
summary reversal, respondent’s cross-motion for

of the December 2011 dismissal without prejudi

r>

iv

a

her first-level review of the April 2011 determin

summary affirmance, petitioner’s opposition thereto,

'i

of her worker’s compensation claim are immatei

and the record on appeal from the Compensation

for present purposes, as she eventually did appe
Review Board (CRB), it is

J;

!f

the December 2011 dismissal to CRB, which

if

dismissed her second-level review on timeliness

if

!

App. lc

App. Id

grounds, and this court summarily affirmed in

prejudice does not forever protect a claim from

Jackson u. District of Columbia Dep’t of Emp’t.

dismissal in a later proceeding on the ground of n

Servs., No. 17-AA-875 (D.C. Mar. 19, 2018).

i

judicata. If there is subsequent litigation resultir

Petitioner could have either made her current

in a decision on the merits, in which a party has t

arguments in the prior CRB proceeding or first

opportunity to litigate an issue and fails to do so,

attempted to re-appeal the April 2011 determination

that party may not rely on an earlier dismissal

to the Office of Administrative Hearings before

without prejudice to shield his later claim from a

appealing in the first instance to CRB; but res

judicata-based dismissal.”); Askin v. District of

judicata forecloses her from doing so now. See Short

Columbia, 728 A.2d 665, 667 (D.C. 1999)

u. District of Columbia Dep’t of Emp’t Servs., 723

(recognizing that a dismissal of a prior action on

A.2d 845, 849 (D.C. 1998) (“Once a claim is finally

timeliness grounds “precludes a second action on

adjudicated, the doctrine of [res judicata:] will

same claim in the same system of courts”),

operate to prevent the same parties from relitigation

Petitioner’s reliance on Artis v. District of Columl

of not only those matters actually litigated but also

138 S.Ct. 594 (Jan. 22, 2018), for a contrary resul

those which might have been litigated in the first

misplaced to the extent Artis does not concern th<

proceeding.”); Shin v. Portals Confederation Corp.,

doctrine of res judicata. It is

728 A.2d 615, 618 (D.C. 1999) (“A dismissal without

App. le

App. 2b

FURTHER ORDERED and ADJUDGED that

DISTRICT OF COLUMBIA HOUSING
AUTHORITY and DISTRICT OF COLUMB
OFFICE OF RISK MANAGEMENT,
Employer/Administrator-Respondent.

the order on appeal is affirmed.
ENTERED BY
DIRECTION OF THE COURT:

Appeal from a March 12, 2018 Final Order issi
/s/

by Administrative Law Judge Margaret A. Man

JULIO A. CASTILLO
Clerk of the Court

District of Columbia Office of Administrativi
Hearings
OAH Case No. 2017-PSWC-00048, DCP No.

App. 2a

3010008802422-001

GOVERNMENT OF THE DISTRICT OF
COLUMBIA

(Decided August 30, 2018)

Department of Employment Services

Leslie T. Jackson, pro se Claimant

COMPENSATION REVIEW BOARD
CRB No. 18-043

Andrea G. Comentale and Milena Mikailova for
Employer

LESLIE T. JACKSON
Claimant-Petitioner,
Before JEFFREY P. RUSSELL, HEATHER C.
LESLIE, AND GENNET PURCELL, Administr;
Appeals Judges.

v
i

App. 2c

App. 2d

JEFFREY P. RUSSELL, for the Compensation
Review Board.

Program about workers’ compensation
for her injuries.

DECISION AND ORDER DISMISSING APPEAL

On August 4, 2010, the Housing
Authority formally reprimanded Ms.
Jackson for failing to complete work
assignments and insubordination. Ms.
Jackson responded by filing a complaint
with the Equal Employment
Opportunity Commission on August 19,
2010. She claimed the Housing
Authority failed to accommodate her
disability by rejecting her requests for
accommodation and by censuring her.
On November 24, 2010, the Housing
Authority notified Ms. Jackson that her
employment would be terminated for
continued failure to perform her work.
At some point “[bjefore [she] was
terminated,” Ms. Jackson filed a claim
for workers’ compensation.

FACTS OF RECORD AND PROCEDURAL
HISTORY
The following facts are taken from the

s

decision issued by the District of Columbia Court of
Appeals (“DCCA”) in Leslie T. Jackson u. District of
Columbia, et al., No. 13-CV-1375 Mem. Op. & J.
(D.C. October 28, 2016) (“MOJ”):
While serving as an attorney for the
D.C. Housing Authority, Leslie Jackson
experienced two workplace injuries. On
January 4, 2006, Ms. Jackson slipped
and fell on a floor that had been
recently mopped and waxed, and on
December 17, 2009, she fell again when
a chair collapsed beneath her during an
administrative hearing. Ms. Jackson
reported her 2009 injuries to her
supervisor, and in July 2010 she
“contacted” the District of Columbia
Public Sector Workers’ Compensation
j

In April 2011, the Public Sector
Worker’s Compensation Program
accepted her workers’ compensation
claim only for “cervical and lumbar
strain,” declining to credit other
injuries, including multilevel
degenerative changes” and disc
displacement,” due to a lack of evidence.
The notice of determination granted
Ms. Jackson certain medical expenses
(if treatment was performed or

App. 2e

App. 2f

prescribed by a approved physician)
and possible continuation of pay. The
notice also provided that “[i]f you
disagree with this notice, you must act
now by appealing this notice,” within 30
days of the date of this notice,” to the
[Administrative Hearings Division
[AHD] [of]] District’s Department of
Employment Services (DOES).
Ms. Jackson appealed the
determination to DOES, filing an
application for a formal hearing [AFH]
before an Administrative Law Judge
(ALJ). The Housing Authority moved
to dismiss, and Ms. Jackson opposed
the motion, arguing that she had been
terminated for seeking workers’
compensation. In December 2011, the
ALJ dismissed Ms. Jackson’s hearing
application without prejudice because it
lacked a “genuine controversy of law or
fact that is ripe for adjudication.” The
order noted that Ms. Jackson’s claim
was “accepted and benefits are being
paid,” and concluded that a “cause of
action based on termination for seeking
workers’ compensation “is not proper
for this forum.” The ALJ found no basis
for jurisdiction in the filings.

Ms. Jackson did not appeal this
decision to the Compensation Review
Board.

!-

1

I

Before the ALJ dismissed the
application for a hearing, Ms. Jackson
also filed this case in Superior Court
against the District and the Housing
Authority. She alleged that she
“entered into an implied contract with
Defendant for provision of Workers’
Compensation benefits, should [she]
become unable to work due to a work
place injury.” Ms. Jackson requested
among other relief an injunction
“ordering Defendant to pay Worker
Compensation in the amount 75% of
her salary in the form of a lump sum
payment beginning December 9, 2010
[,] and continuing until the lump sum
payment is received.” Ms. Jackson later
amended her complaint to include
claims for discrimination and
retaliation in violation of the D.C.
Human Rights Act.
On March 22, 2013, the Superior Court
dismissed the workers’ compensation
claims for lack of jurisdiction,
concluding that the CMPA “establishes
[her] exclusive remedy for such claims.
The court stated that “[ajppeals from
decisions made by the Director of DOES

r

App. 2g

App. 2h

are filed directly with the District of
Columbia Court of Appeals. The
Superior Court‘s only role in CMPA
compensation claims is to consider liens
filed against the District.” See D.C.
Code § 1-623.24 (g).
Ms. Jackson proceeded to file a “notice
of lien” against both the District and
the Housing Authority for more than $7
million. At a pretrial conference on
July 23, 2013, the Superior Court
granted the District of Columbia’s
motion to strike the lien on the basis of
the previous order of dismissal and Ms.
Jackson’s failure to follow CMPA
administrative procedures before
seeking judicial relief. During the
hearing, the court also heard argument
on and granted the defendants’ motion
in limine to preclude any evidence
regarding the workers’ compensation
claims that had been dismissed. The
court went on to limit witness
testimony that would be irrelevant or
cumulative, striking witnesses for
whom Ms. Jackson could provide only
speculative proffers.
A jury trial began on November 18,
2013. On November 25, 2013, the jury
returned a verdict for the Housing
Authority,

finding that Ms. Jackson failed to
“proveQ by a preponderance of the
evidence that engaging in protected
activity was a substantial factor in the
[Housing Authority’s] decision to
terminate her[.] This appeal followed.

For the foregoing reasons, the judgment
of the Superior Court is affirmed.
MOJ at 1-4, 7 (footnotes omitted).
On May 10, 1017, Claimant filed an
Application for Review (“AFR”) of the December !
2011 dismissal order issued by AHD with the CR
On July 19, 2017, the CRB issued a Decisi
and Order Dismissing Appeal. The CRB held:
i
}

The District of Columbia Housing
Authority (“Employer”) filed an
opposition to the appeal. Among its
arguments is that the appeal is
untimely, being filed nearly six years
after the date of the DO, rather than
within thirty days provided for such an
appeal in D.C. Code § 1-623.28 (a).

:

App. 2i

App. 2j

Claimant argues that the statutory
time limit is waivable and is also
subject to equitable estoppel. She
posits that the pendency of the Superior
Court and DCCA proceedings should
toll the time for filing an appeal with
the CRB. She does not suggest any
grounds upon which Employer can be
said to waive limitation in this case.
We note that even if we were to agree
that in some instances the statutory
time limit for filing an appeal from and
order issued by AHD to the CRB is
subject to being equitably tolled, we see
no basis for such a finding in this case.
Claimant points to no impediment to
filing a timely appeal. Further, the
attempt to litigate her compensation
claim in Superior Court was ended by
the court on March 22, 2013 and was
reaffirmed by the DCCA upon issuance
of the MOJ on October 28, 2016 and the
DCCA’s reissuance of the mandate on
February 8, 2017. Even under the
most charitable application of equitable
tolling, the five-and-a-half-year-old DO
should have been appealed to the
CRB by March 10, 2017, within 30 days
of the reissued MOJ mandate.

Accordingly, we determine that
Claimant’s appeal must be dismissed as
being untimely.
Leslie T. Jackson v. District of Columbia Housing
Authority, CRB No. 17-045 (July 19, 2017), at 3-4
(footnote omitted).
On August 7, 2017 Claimant appealed the
CRB’s Decision and Order Dismissing Appeal to tl
DCCA. Among the grounds for that appeal was th
the time for appeal of the December 21, 2011
dismissal order from AHD to the CRB should have
been tolled while the Superior Court and Court of
Appeals cases were pending.
On September 14, 2017, Claimant filed an
I

i

Application for Formal Hearing with the Office of
Administrative Hearings (“OAH”), seeking to haw
that agency adjudicate the workers’ compensation
claim.

I

!

App. 2k

App. 21

On March 12, 2018, an Administrative Law
Judge in OAH issued a Final Order (“FO”)
dismissing Claimant’s AFR as untimely and in
conflict with the prior order of the CRB of July 19,
2017.
On March 19, 2018, the DCCA issued
judgment affirming the CRB’s July 19, 2017 Decision
and Order Dismissing Appeal, ruling as follows:
On consideration of respondent’s motion
for summary affirmance, petitioner’s
opposition thereto, petitioner’s brief and
appendix, and the record on appeal, it is

!
I
!

ORDERED that respondent’s motion for
summary affirmance is granted. See
Oliver T. Carr Mgmt., Inc. v. Nat’l
Delicatessen, Inc., 397 A.2d 914, 915
(D.C. 1979). The Compensation Review
of the District of Columbia Department
of Employment Services did not err in
dismissing petitioner’s appeal as
untimely because even assuming that
the statutory time period for filing her
appeal was subject to equitable tolling,

!

petitioner failed to file her petition
within the statutory 30-day period after
the mandate issued on February 8,
2017, or explain her delay in timely
filing after all jurisdictional issues were
resolved. See D.C. Code § 1-623.28 (a)
(2001); Georgetown Univ. v. District of
Columbia Dep’t ofEmp’t Servs., 971
A.2d 909, 915 (D.C. 2009) (“We affirm
an administrative agency decision when
(1) the agency made findings of fact on
each contested material factual issue,
(2) substantial evidence supports each
finding, and (3) the agency’s conclusions
of law flow rationally from its findings
of fact.”); Mathis v. District of Columbia
Hous. Auth., 124 A.3d 1089, 1104 (D.C.
2015) (“[Wjhether a timing rule should
be tolled turns on whether there was
unexplained or undue delay and
whether tolling would work an injustice
to the other party.”). Petitioner’sarguments, raised for the first time on
appeal, that illness prevented her from
timely filing the appeal and that she
was lulled into inaction, are unavailing.
See District of Columbia v. Califano,
647 A.2d 761, 765 (D.C. 1994) (“It is a
well-established principle of appellate
review No. 17-AA-875 that arguments
that are not made [below] may not be
raised for the first time on appeal.”). It
is

App. 2m

App. 2n

FURTHER ORDERED and
ADJUDGED that the order on appeal is
affirmed.

Reply to Respondent’s Opposition to Motion for

Leslie T. Jackson v. District of Columbia Department

Summary Reversal and Application for Review.

On April 30, 2018, Claimant filed Petitioner’s

of Employment Services, No. 17-AA-875 (D.C. March

We dismiss the appeal under the principle of

19, 2018).

res judicata and for the further reason that we lack

On March 26, 2018, Claimant filed

jurisdiction to review decisions of the DCCA.

“Petitioner’s Motion for Summary Reversal and

ANALYSIS

Application for Review” (AFR 2) with the CRB,

The DCCA has issued a final judgment
!

appealing the FO issued by OAH on March 12, 2018.
On April 25, 2018, Employer filed

affirming the CRB’s dismissal of Claimant’s origins
AFR. In its March 19, 2018 Judgment, the DCCA

Respondent’s Memorandum of Points and

considered the same arguments raised in this appe

Authorities in Opposition to Petitioner’s Application

and rejected them. We are without authority and

for Review.1

decline to consider this appeal as the matter has
been fully and finally adjudicated and is thus bam
by res judicata.
Claimant raised an additional argument, thi

A Consent Motion for Extension of Time to file Employer’s
opposition was granted April 13, 2018.

in Artis v. District of Columbia, 138 S. Ct. 594

App. 2o

App. 3b

(January 22, 2018) the United States’ Supreme

)

v.

Court issued a decision which renders the DCCA’s
March 19, 2018 Judgment erroneous.
The argument is rejected. We have no
jurisdiction to review, reverse or otherwise alter a

DISTRICT OF COLUMBIA
HOUSING AUTHORITY

judgment of the DCCA.

Employer.

CONCLUSION AND ORDER
Claimant’s appeal of the Final Order of March
12, 2018 is DISMISSED WITH PREJUDICE.
So ordered.

)OHA/AHD
)No. PBL 11)019
)ORM/DCP
)No.30100088
)02422-001
)
)
)
)

DISMISSAL ORDER
This matter came before the Office of
Hearings and Adjudication as a result of Claimant’s
April 25, 2011 request for a formal hearing.
Attached to her request is an April 11, 2011 Notice

App. 3a

Determination Regarding Original Claim. The

GOVERNMENT OF THE DISTRICT
OF COLUMBIA
Department of Employment Services
In the Matter of
LESLIE JACKSON
Claimant

)
)
)
)

notice of Determination indicates that Claimant’s
request for benefits was accepted. Claimant’s pre­
hearings pleadings do not provide and alternative
basis for jurisdiction other than the April 11, 2011
notice.

App. 3c
It has been determined that where Employer

App. 3d
therefore AHD lacks jurisdiction. Claimant s

is voluntary paying benefits Claimant is not entitled

response brief failed to articulate any reason why

to a formal hearing as there is no genuine

the matter should be adjudicated in this forum.

controversy. On October 18, 2011, Employer filed a

Further on December 18, the undersigned contacted

motion to dismiss Claimant’s request for a formal

the parties [sic] counsel to obtain possible dates for a

hearing. On the same day Claimant filed its

formal and requested that counsel notify the

opposition to Employer’s motion. Claimant’s

undersigned of the three dates that the parties will

opposition suggested that Claimant was terminated

be willing to attend the formal hearing. However

for seeking workers compensation benefits. That

later that day the undersigned received not dates foi

cause of action is not proper for this forum.

a formal hearing but a motion from Claimant

Based on the parties briefs it is hereby

through counsel requesting a decision on issue of

determined that Claimant herein filed a claim for

jurisdiction. In accordance with counsel’s request it

disability benefits which has been accepted. The DC

is hereby Ordered that Claimant’s application for

Court of Appeals stated in Thomas v. DOES, 547

formal hearing be dismissed as lacking genuine

A.2d 1034 (DC App. 1988) that where Claimant’s

controversy of law or fact that is ripe for

claim is accepted and benefits are being paid that

adjudication. Therefore, Claimant’s application for

there is no justiciable issue to be resolved and

formal hearing is dismissed without prejudice.

App. 4b

App. 3e

Employer.

IT IS SO ORDERED,
/S/

)

ORDER

FRED D. CARNEY, JR.

On August 19, 2013, the Office of Hearings

ADMINISTRATIVE LAW JUDGE

and Adjudications/Administrative Hearings Division

December 21, 2011

(AHD) received “Claimant’s Request for
Compensation Order”. Therein Claimant requested
App. 4a

that a compensation order issue in her favor againsl

GOVERNMENT OF THE DISTRICT
OF COLUMBIA
Department of Employment Services

Employer for injuries she allegedly sustained in the
performance of her duties.
A brief review of the administrative file in th.

In the Matter of
)
)
)
)
)

LESLIE JACKSON
Claimant
v.

DISTRICT OF COLUMBIA
HOUSING AUTHORITY

matter indicates that on April 25, 2011 Claimant
filed an application for formal hearing, That

)OHA/AHD
)No. 11-019
)ORM/DCP
)No.30100088
)0880
)2422-001

application was dismissed without prejudice by ord

)
)
)

Columbia Superior Court and the District of

dated December 21, 2011. After appeals to the
Compensation Review Board (CRB), the District of

Columbia Court of Appeals there was no remand o

App. 4c
reversal order issued. Thus, the December 21, 2011

App. 5a

order dismissing Claimant’s application remains the

IN THE SUPERIOR COURT OF THE DISTRICT
OF COLUMBIA
CIVIL DIVISION

law of the case and there is no pending matter before

LESLIE T. JACKSON,

this tribunal at the present. Therefore, Claimant’s

* Civil Action
*No. 2011 CA
*008731B
v
*Judge Brian
DISTRICT OF COLUMBIA, et al., *Holeman

request for a Compensation Order is DENIED.
The December 21, 2011 dismissal was without
prejudice to Claimant filing another application for

PLAINTIFF,

DEFENDANTS.

formal hearing. Therefore, Claimant has the
procedural right to resubmit an application for
formal hearing on the requisite form.
IS SO ORDERD
/S/
FRED D. CARNEY, JR.
ADMINISTRATIVE LAW JUDGE
Date: 9/12/17

PROCEEDINGS
THE DEPUTY CLERK:

Calling the matter

of Leslie T. Jackson versus District of Columbia, et
al, civil action 2011-8731. Parties please identify
yourselves for the record. [July 23, 2013]
MS. JACKSON:

Leslie Jackson, Your

Honor, plaintiff.
THE COURT:

Ms. Jackson.

App. 5b
MR. CHINTELLA:

App. 5c

Good afternoon, Your

Honor. Alex Chintella for the D.C. Housing
Authority.

THE COURT:

What happened with the

payment of the workers compensation benefits? Did

THE COURT:

Mr. Chintella.

MR. DOUGLAS:

Good afternoon, Your

Honor. Frederick Douglas with Mr. Chintella for the

they cease?
MR. ADDO:

They never commenced,

Your Honor.

D.C. Housing Authority with us is our

THE COURT:

Never commenced.

representative Ms. Nicola Grey.

MR. ADDO:

That’s correct, Your Honoi

THE COURT:

Okay.

MR. DOUGLAS:

Yes

THE COURT:

And Ms. Grey.

MS. GREY:

Yes, Your Honor.

THE COURT:

Very Well.

MR. ADDO:

Good Afternoon, Your

Honor. Michael Addo on behalf of the District of
Columbia.
THE COURT:

Mr. Addo.

*'

No.

In The
SUPREME COURT OF THE UNITED STATES
LESLIE T. JACKSON,
Petitioner,
v.
DISTRICT OF COLUMBIA
Respondent.

On Petition For A Writ Of Certiorari To
The District Of Columbia Court Of Appeals
SUPPLEMENTAL APPENDIX FOR
WRIT OF CERTIORARI

Leslie T. Jackson, pro se
235 Oglethorpe Street, N.W.
Washington, D.C. 20011
(202) 679-5047

becSved
NOV 15 2019

App. 6a
IN THE SUPERIOR COURT OF THE
DISTRICT OF COLUMBIA
LESLIE T. JACKSON
Plaintiff,
v.

Civil Action No. 2011 CA 008731B

DISTRICT OF COLUMBIA, ET AL.,
Defendants
ORDER
Upon consideration of Defendant District of
Columbia’s Motion to Dismiss, the Motion is granted
in part and denied I part. The Motion is granted
with respect to Plaintiffs claims for temporary and
permanent injunction. The Motion is denied with
respect to Plaintiffs disability discrimination and
retaliation claims.
I. BACKGROUND
Plaintiff Leslie Jackson served as an attorney for the
District of Columbia Housing Authority (“DCHA”).

App. 6b
(Compl. 1f 10.). While working for the DCHA,
Plaintiff experienced multiple workplace incidents
which caused her long-term injuries. (Id. | 11.) On
January 4, 2006, Plaintiff slipped and fell oh a
concrete floor that was being mopped and waxed by
the DCHA, suffering injuries to her neck, head,
shoulder, back, and hips. (Id.

25-27.) On

December 17, 2009, Plaintiff was representing the
DCHA at an administrative hearing when the chair
she was sitting in collapsed, causing Plaintiff to fall
to the floor. (Id. f f 34-35.) As a result of these two
incidents, Plaintiff was diagnosed with cervical disc ,
displacement, spinal spondylosis, spinal and lumbar
stenosis and nerve damage. (Id. K 54.) Plaintiff
reported her injuries to her supervisor as required
by D.C. Code 1-623.19, (id. ^ 36.), and filed a claim
for workers’ compensation benefits with the District

App. 6c
of Columbia Public Sector Workers’ Compensation
Program (“Compensation Program”) pursuant D.C.
Code 1-623.02(b). (See id, tU 12, 51.) The
Compensation Program accepted Plaintiffs claim on
April 11, 2011, (id. t 51), but stated that her covered
injuries did not include “multilevel degenerative
changes including foraminal cervical spondylosis
[,]stenosis and disc displacement.” (Id. Ex. 3.)
Plaintiffs injuries prevented her from
performing her normal work duties. (Am. Compl. ^
27.)1 Plaintiff provided her supervisors and the
District of Columbia with medical documentation of
her injuries and requested support staff assistance
as an accommodation, but the accommodation

1 Plaintiffs Amended Complaint incorporated by
reference the entirety of the original Complaint.

App. 6d
requests were denied and Plaintiff was disciplined
for her inability to complete work. (Id. If If 25-29.) In
response to the discipline and failure to
accommodate her disability, Plaintiff filed a
complaint with the U.S. Equal Employment
Opportunity Commission (“EEOC”). (Id.^ 28.) On
November 24, 2010, six days before a scheduled
EEOC mediation session, the DCHA notified
Plaintiff that she was being terminated effective
December 8, 2010. (Compl. ^ 48.)
On April 25, 2011, Plaintiff requested a formal
hearing before the Department of Employment
Services (“DOES”) pursuant to her April 11,2011,
compensation award notice. Jackson, OHA/AHD
No. PBL 11-019, ORM/DCPNo. 30100088024220001 (D.C. Dep’t of Employment Servs. Dec. 21,
2012). Before DOES took any action on Plaintiffs

App. 6e
administrative request, however, Plaintiff initiated
this action on November 3, 2011, seeking a
temporary restraining order, preliminary injunction,
and permanent injunction, ordering Defendants to
pay her approved workers compensation benefits.
On November 14, 2011, the Court (J. Tignor
presiding) denied Plaintiffs request for a temporary
restraining order because the “substance of [the]
claim seeking monetary award [was still] pending
administrative proceedings before DOES” and
scheduled a status hearing for December 16, 2011.
(See Order, Nov. 14, 2011.) The Court also issued an
oral order denying Plaintiffs Motion for Preliminary
Injunction. (Id.)
On December 9, 2011, Defendant District of
Columbia filed its first Motion to Dismiss for lack of
jurisdiction. On December 15, 2011, Plaintiff filed a

App. 6f
Motion for Reconsideration of the Court’s order
denying her temporary restraining order. During
this period, Plaintiffs matter before DOES
continued. On December 18, 2011, the
Administrative Law Judge (“ALJ”) requested dates
from the parties for a formal hearing, but Plaintiff
instead responded with a motion requesting a ruling
on the issue of jurisdiction. Jackson, OAHA//AHD
No. PBL 11-019, ORM/DCP No. 30100088024220001 (D.C. Dep’t of Employment Servs. Dec. 21,
2012). Three days later, on December 21, 2011, the
ALJ dismissed Plaintiffs request for a formal
hearing without prejudice, stating that there was no
justiciable issue to be resolved “where [Plaintiffs]
claim is accepted and benefits are being paid” and
Plaintiff “failed to articulate any reason why the
matter should be adjudicated.” (Id.) On the same

App. 6g
day, Plaintiff appealed this Court’s order denying
her temporary restraining order to the District of
Columbia Court of Appeals (Def.’s Supp’l Br. in
Opp’n to Pl.’s Mot. for Recons, and in Supp. of D.C.’s
Mot. to Dismiss 2). On January 18, 2012, the Court
of Appeals ordered that Plaintiff “show cause why
[the] appeal should not be dismissed as having been
taken from a non-final and non-appealable order.”
(Def.’s Supp’l Br. In Opp’n to Pl.’s Mot. for Recons.
and in Supp. of its Mot. to Dismiss Ex. 2.)
On February 3, 2012, Plaintiff again moved
the Court for a restraining order, and the District
simultaneously moved the Court for a stay pending a
decision on its Motion to Dismiss. (Pl.’s Opp’n to
Def. D.C.’s Mot. to Dismiss 4[.]) The court stayed the
case and scheduled mediation for June 2012. On
March 31, 2012, DCHA joined in the District’s

App. 6h
Motion to Dismiss. (DCHA’s Supp’l Br. in Opp’n to
PL’s Mot. for Recons, and in Supp. of its Mot. to
Dismissl.)
On April 3, 2012, Plaintiff moved to amend
her complaint. Plaintiff amended complaint
incorporated the entirety of her initial complaint and
included additional claims for disability
discrimination, retaliation and aiding and abetting
discrimination in violation of the District of
Columbia Human Rights Act. (See Am. Compl.) On
August 31, 2012, the Court orally granted Plaintiffs
Motion to Amend the Complaint, denied Plaintiff s
Motion for Reconsideration, and denied Defendants’
Motion to Dismiss as moot. (Hr’g Aug. 31, 2012.)
Defendant District of Columbia subsequently filed
its current Motion to Dismiss on November 12, 2012,
which reiterated the jurisdictional arguments made

App. 6i
in the initial Motion to Dismiss but fails to address
any of the additional claims found in Plaintiff s
amended complaint. (See Def.’s Mot. to Dismiss,
Nov. 12, 2012.) Plaintiff filed an opposition to this
Motion to Dismiss on November 27, 2012.
II.

STANDARD OF REVIEW

Rule 12(b)(6) governs motions seeking dismissal for
failure to state a claim upon which relief can be
granted. D.C. Super. Ct. R. Civ. P. 12(b)(6) (2012).
The Court construes all facts and inferences in favor
of the nonmoving party. Grayson v. AT&T Corp., 15
A.3d 219, 228 (D.C. 2011; See also Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009) (“To survive a motion to
dismiss, a complaint must contain sufficient factual
matter, accepted as true, to state a claim to relief
that is plausible on its fact.” (citations omitted)
(emphasis added)). The complaint requires “more

App. 6j
than an unadorned, the defendant-unlawfullyharmed-me accusation.” Potomac Dev. Corp. v.
District of Columbia, 28 A.3d 531, 544 (D.C. 2011)
(quoting Iqbal, 556 U.S. at 678). Rather, “[a] claim
has facial plausibility when the plaintiff pleads
factual content that allows the court to draw the
reasonable inference that the defendant if liable for
the misconduct alleged.” Id. (quoting Iqbal, 556 U.S.
at 678). “When there are well-pleaded factual
allegations, a court should assume their veracity and
then determine whether they plausibly give rise to
an entitlement to relief.” Id. (quoting Iqbal, 556
U.S. at 679); see also Bertram v. WFI Stadium, Inc.,
41 A.3d. 1239, 1243 n.5 (D.C. 2012) (finding that
Potomac Development Corp. interpreted D.C. Super.
Ct. R. Civ. P. 8(a) to include the same plausibility
standard outlined in Iqbal). “The only issue on

App. 6k
review of a dismissal made pursuant to Rule 12(b)(6)
is the legal sufficiency of the complaint.” Grayson,
15 A.3d at 228-29 (quoting Murray v. Wells Fargo
Home Mortg., 953 A.2d 308, 316 (D.C. 2008)).
II.

ANALYSIS

Defendants argue that his matter must be dismissed
for lack of jurisdiction because the Comprehensive
Merit Personnel Act (“CMPA”) establishes Plaintiffs
exclusive remedy concerning her workers’
compensation claims. The Court agrees that
Plaintiffs request for injunctive relief must be
dismissed for this reason. Defendants, however,
have not acknowledged the disability discrimination
or retaliation claims filed under the D.C. Human
Rights Act (“DCHRA”) in Plaintiffs amended
complaint. The District of Columbia Court of
Appeals has clarified that “the regulations

App. 61
pertaining to the CMPA expressly exclude from the
employee grievance procedures ay allegations within
the jurisdiction of the D.C. Office of Human Rights.”
Robinson v. District of Columbia, 748 A.2d 409, 411
(D.C. 2000). Therefore, Defendant’s motion is denied
with respect to Plaintiffs DCHRA claims.
(a) Applicability of the Comprehensive Merit
Personnel Act
The Comprehensive Merit Personnel Act
(“CMPA”) was designed to be “a mechanism for
addressing virtually every conceivable personnel
issue among the District, its employees, and their
unions-with a reviewing role for the courts as a last
resort, not a supplementary role for the courts as an
alternative forum.” District of Columbia v.
Thompson, 593 A.2d 621, 634 (D.C. 1991). In

6m
accordance with this purpose, the CMPA provides
that:
The liability of the District of Columbia . . .
under this subchapter or ay extension thereof
with respect to the injury or death of an
employee, is excusive and instead of all other
liability ... to the employee . . . [or] any other
person otherwise entitled to recover ... in a
direct judicial proceeding, in a civil action, or
in admiralty, or by an administrative or
judicial proceeding under a workmen’s
compensation statute or under a federal tort
liability statute.
D.C. Code § 1-623.16(c) (2001) (emphasis added).
Thus, the CMPA provides “District employees with
their exclusive remedies for claims arising out of
employer conduct in handling personnel ratings,
employee grievances, and adverse actions.”
Thompson, 593 A.2d at 635.
Plaintiffs request for enforcement of her
compensation awards clearly falls within the scope of
the CMPA’s workers compensation provisions, which

App. 6n
provides that, “[t]he District government shall
furnish to an employee who is injured while in the
performance of duty the services, appliances, and
supplies prescribed or recommended by a qualified
physician.” D.C. Code § 1-623.03. Plaintiff has
implicitly acknowledged that CMPA covers her
compensation covers her compensation claims by
making her initial filing under the CMPA and
subsequently appealing the matter to DOES as
directed by the statute. Furthermore, Plaintiff
regularly refers to the CMPA throughout her
Complaint as the basis for Defendant’s liability, (see
e.g., Compl.

23, 36, 52, 57, 59), and has conceded

that “[a]s a quid pro quo for the automatic liability,
the [CMPA] provides the employee exclusive
remedies for injuries within its reach.” (PI. Opp. to
Def. D.C.’s Mot. to Dismiss 8.) Therefore, the

App. 60
CMPA’s provisions are controlling to the extent they
provide for Plaintiffs relief. See Newman v. District
of Columbia 518 A.2d 698, 704-05 (D.C. 1986)
(“[Government employees only lose common law
rights to recovery if the [CMPA] provides redress for
the wrongs they assert.”).
Plaintiff s contention that her workers’
compensation claims are not subject to the CMPA’s
exclusive coverage because “DOHA is a separate
legal entity from the District of Columbia” and
[ejmployees of the DCHA are treated as employees of
the DCHA” lacks merit. (Pl.’s Opp. to DCHA’s Mot.
to Dismiss 4-5.) Plaintiff is correct that DCHA is a
separate legal entity from the District, that DCHA
employees are not technically employees of the
District, and that the CMPA is not generally
applicable to DCHA employees. D.C. Code §§ 6-202,

App. 6p
6-215. However, D.C. Code § 6-215, which govern
the status of DCHA employee, specifically provides
that the CMPA’s workers compensation provisions
“shall continue to apply to [DCHA] employees”
unless and until DCHA “change[s] from the public to
the private sector workers’ compensation program”
through an agreement between “the collective
bargaining agreement representative and the
Authority.” D.C. Code § 6-215(a)(3). Plaintiff has
implicitly conceded that no such plan has been
made; if such a change has been made, Plaintiff
would not be entitled to the CMPA compensation
award underlying her claim in the first place. See
D.C. Code § 32-1504 (employer’s liability under the
private sector workers’ compensation program is
exclusive and in place of all other liability stemming
from workplace injuries). Plaintiff cites District of

App. 6q
Columbia Housing Authority v. District of Columbia
Department of Human Rights and Local Business
Development, 733 A.2d 338 (D.C. 1999), as
establishing that “DCHA employees are not subject
to the [CMPA](Pl.’s Opp. to DCHA’s Mot. to
Dismiss 3.) In that case, however, the Court of
Appeals merely clarified that employees of the
Department of Public and Assisted Housing
(“DPAH”), the predecessor to DCHA, “would
continue to retain [rights as] District government
employee [s] after the functions of DPAH, “were
transferred to DCHA.” D.C. Housing Auth., 733
A.2d at 342. That finding does not support the
proposition which Plaintiff attempts to advance.
(b)

Plaintiff’s Remedies Under the CMPA

The CMPA establishes clear procedures for
employees seeking compensation for workplace

App. 6r
injuries. An employee injured in the performance of
her duties must provide notice of the injury to her
immediate supervisor and file a disability claim with
the Mayor or DOES. D.C. Code § 1-623.19; see also
D.C. Code § 1-623.20. Once the claim has been filed,
DOES must make factual findings and award for or
against compensation within thirty days.2 D.C.
Code § 1-623.24(b)(1). If the claimant is dissatisfied
with the ALJ’s decision, the claimant has another

2 A claim will be deemed accepted, with payment to
be initiated the following days, if DOES fails to
award for or against compensation within thirty (30)
days, unless DOES provides notice in writing that
explains why DOES is precluded from making a
decision within the thirty day period. D.C. Code § 1623.24(a-3)(l).

App. 6s
thirty days to submit an application for further
review by the Director of DOES. D.C. Code § 1623.28(a). The claimant may challenge the
Director’s final decision by appealing the matter to
the District of Columbia Court of Appeals within
thirty days. D.C. Code § 1-623.28(b). Finally,
[i]f the Mayor or his or her designee fails to
make payments of the award for compensation
. . . the claimant may file with the Superior
Court of the District of Columbia a lien
against. . . [any] District fund or property to
pay the’ compensation award. The Court shall
fix the terms and manner of enforcement of
the lien against the compensation award.
D.C. Code § 1-623.24(g). Thus, the CMPA provides
clear procedures for both for claiming an award as
well as enforcing one.
Plaintiff cannot avail herself to remedies not
included within the CMPA’s comprehensive
statutory scheme. “[W]hen a legislature makes

App. 6t
express mention of one thing, the exclusion of others
is implied, because ‘there is an inference that all
omissions should be understood as exclusions.”’
McCray v. McGee, 504 A.2d 1128, 1130 (D.C. 1986).
(quoting 2A Sutherland, Statutes ad Statutory
Construction § 47.23 (4th ed. 1984)). “Hence, a
statute that mandates a thing to be done in a given
manner, or by certain persons or entities, normally
implies that it shall not be done in any other
manner, or by other persons or entities.” Id. at 1130.
This doctrine, generally known by the Latin phrase
expressio unius est exclusio alterius, must be applied
with caution, but it is useful “where the context
shows that the draftsmen’s mention of one thing . . .
does really necessarily, or at least reasonably, imply
the preclusion of alternatives.” Odeniran v.
Hanleywood, 985 A.2d 421, 427 (D.C. 2009) (quoting

App. 6u
Independent Ins. Agents of Am. Inc. v. Hawke, 211
F.3d 638, 644 (D.C. Cir. 2000)).
Here, Plaintiff has successfully claimed a
compensation award from the District but has failed
to properly enforce that award according to the
CMPA’s procedures. The District of Columbia
Council expressly established Plaintiffs remedy for
the District’s “fail[ure] to make payments of the
award” by directing Plaintiff to “file with the
Superior Court of the District of Columbia a lien
against [District property].” D.C. Code § 1-623.24(g).
Plaintiff, however, has instead attempted to enforce
payment of her compensation award by seeking
injunctive relief based on breach of contract theory of
liability. This attempt must fail under the expressio
unius doctrine; the legislature clearly recognized the
possibility that the District might fail to pay an

App. 6v
award as required and provided a specific remedy, to
the exclusion of others, for such a situation.
Injunctive relief is one such excluded remedy, and
therefore this Court lacks jurisdiction necessary to
provide Plaintiff with the injunctive relief requested.
To effectively enforce payment of her compensation
award, Plaintiff must instead file a lien against
District of Columbia property according to the
CMPA’s procedures. D.C. Code § 1-623.24(g).
That the District of Columbia Council
intended the lien remedy provision to be exclusive of
others is further supported by the comprehensive
nature of the CMPA. “Statutory meaning is derived,
not from the reading of a single sentence or section,
but from consideration of an entire enactment
against the backdrop of its policies and objectives.”
Rickman Towers Tenants’Ass’n, Inc. v. Rickman

App. 6w
Towers LLC, 17 A.3d 590, 615 (D.C. 2011) (citation
omitted). The Court of Appeals has repeatedly
acknowledged the broad scope of the CMPA’s
preemptive provisions. See, e.g., Thompson, 593
A.2d at 635 (CMPA was intended to “create a
mechanism for addressing virtually every
conceivable personnel issue among the District, its
employees, and their unions”); Robinson v. District of
Columbia, 748 A.2d 409 (D.C. 2000) (“With few
exceptions, the CMPA is exclusive remedy for a
District of Columbia public employee who has workrelated complaint of any kind.”). Against this
backdrop, the CMPA provision allowing Plaintiff to
file a lien against District property should be
construed as Plaintiffs exclusive remedy for the
District’s failure to pay and preclude Plaintiff from
obtaining relief through other channels of

App. 6x
enforcement. Therefore, Plaintiff s attempts to
enforce the award payments by framing the issue as
a breach of contract must fail. Any other result
would severely undermine the comprehensive nature
of the CMPA.
Plaintiffs reliance on District of Columbia v.
Group Insurance Administration, 633 A.2d 2 (D.C.
1993), is misplaced. As Plaintiff notes, the Court of
Appeals in that case held that “the Superior Court
must. . . have the power to issue emergency relief
pending the resolution of agency proceedings in
cases where, in the first instance, review would lie in
the Superior Court.” District of Columbia v. Group
Ins. Admin., 633 A.2d 2, 14 (D.C. 1993). Under the
CMPA, however, review of DOES workers’
compensation proceedings never lie in the Superior
Court. Appeals from decisions made by the Director

App. 6y
of DOES are filed directly with the District of
Columbia Court of Appeals. The Superior Court’s
only role in CMPA compensation claims is to
consider liens filed against the District. D.C. Code §
1-623.24(g).
IV.

CONCLUSION

The Court grants Defendant’s Motion to Dismiss
with respect to Plaintiffs claims for injunctive relief.
The Comprehensive Merit Personnel Act establishes
the exclusive remedy for Plaintiffs workers’
compensation claims. That remedy does not include
injunctive relief. Therefore, Plaintiffs claims for
injunctive relief are dismissed on the grounds that
this Court lacks jurisdiction. The Court denies
Defendant’s Motion to Dismiss with respect to the
remainder of Plaintiffs claims.

App. 6z
WHEREFORE, it is this

day of March,

2013,
ORDERED, that the Defendant’s Motion to
Dismiss is GRANTED IN PART; and it is
FURTHER ORDERED, that Plaintiff s
claims for injunctive relief are DENIED.
SO ORDERED.
/ S/
ERIK P. CHRISTIAN
(Signed in chambers)

App. 7a

IN THE DISTRICT OF COLUMBIA COURT OF
APPEALS
No. 13-CV-1375
LESLIE T. JACKSON
Appellant,
CAB -8731-11
DISTRICT OF COLUMBIA, ET AL.,
Appellee
Appeal from the Superior Court of the District of
Columbia
(Hon. Brian F. Holeman, Trial Judge),
Submitted September 15, 2015
October 28, 2016

Decided

BEFORE: Beckwith and Easterly, Associate
Judges and Belson, Senior Judge.

MEMORANDUM OPINION AND JUDGMENT
PER CURIAM: Appellant Leslie Jackson, a
former employee of the District of Columbia

App. 7b
Housing Authority, appeals from a Superior Court
order dismissing for lack of jurisdiction [of] her claim
for workers’ compensation under the District of
Columbia Comprehensive Merit Personnel Act
(CMPA).1 Ms. Jackson also argues that the trial
court erred in declining to enforce a related lien
seeking unpaid disability compensation under D.C.
Code § 1-623.24 (g) (2012 Repl.). Finding no error,
we affirm.
I.

FACTS

While serving as an attorney for the D.C.
Housing Authority, Leslie Jackson experienced two
workplace injuries. On January 4, 2006, Ms.
Jackson slipped and fell on a floor that had been
recently mopped and waxed, and on December 17,

1 D.C. Code §§ 1-601.01 to -636.03 (2012 Repl.).

App. 7c
2009, she fell again when a chair collapsed beneath
her during an administrative hearing. Ms. Jackson
reported her 2009 injuries to her supervisor, and in
July 2010 she “contacted” the District of Columbia
Public Sector Workers’ Compensation Program
about workers’ compensation for her injuries.
On August 4, 2010, the Housing Authority
formally reprimanded Ms. Jackson for failing to
complete work assignments and insubordination.
Ms. Jackson responded by filing a complaint with
the Equal Employment Opportunity Commission on
August 19, 2010. She claimed the Housing
Authority failed to accommodate her disability by
rejecting her requests for accommodation and by
censuring her. On November 24, 2010, the Housing
Authority notified Ms. Jackson that her employment
would be terminated for continued failure to perform

App. 7d
her work. At some point “[b]efore [she] was
terminated,” Ms. Jackson filed a claim for workers’
compensation.
In April 2011, the Public Sector Worker’s
Compensation Program accepted her workers’
compensation claim only for “cervical and lumbar
strain,” declining to credit other injuries, including
multilevel degenerative changes” and “disc
displacement,” due to a lack of evidence. The notice
of determination granted Ms. Jackson certain
medical expenses (if treatment was performed or
prescribed by an approved physician) and a possible
continuation of pay. The notice also provided that
“[i]f you disagree with this notice, you must act now
by appealing this notice, within 30 days of the date
of this notice,” to the District of Columbia
Department of Employment Services (DOES).

App. 7e
Ms. Jackson appealed the determination to
DOES, filing an application for a formal hearing
before an Administrative Law Judge (ALJ). The
Housing Authority moved to dismiss, and Ms.
Jackson opposed the motion, arguing that she had
been terminated for seeking workers’ compensation.
In December 2011, the ALJ dismissed Ms. Jackson’s
hearing application without prejudice because it
lacked a “genuine controversy of law or fact that is
ripe for adjudication.” The order noted that Ms.
Jackson’s claim was “accepted and benefits are being
paid,” and concluded that a “cause of action” based
on termination for seeking workers’ compensation
benefits “is not proper for this forum.” The ALJ
found no basis for jurisdiction in the filings. Ms.
Jackson did not appeal this decision to the
Compensation Review Board.

App. 7f
Before the ALJ dismissed the application for a
hearing, Ms. Jackson also filed this case in Superior
Court against the District and the Housing
Authority. She alleged that she “entered into an
implied contract with Defendant for provision of
workers compensation benefits, should [she] become
unable to work due to a work place injury.” Ms.
Jackson requested among other relief an injunction
“ordering Defendant to pay Workers Compensation
in the amount of 75% of her salary in the form of a
lump sum beginning December 9, 2010[,] and
continuing until the lump sum payment is received.”
Ms. Jackson later amended her complaint to include

App. g
claims for discrimination and retaliation in violation
of the D.C. Human Rights Act.2
On March 22, 2013, the Superior Court
dismissed the workers’ compensation claims for lack
of jurisdiction, concluding that the CMPA
“establishes [her] exclusive remedy” for such claims.
The court stated that “[a]pleas from decisions made
by the Director of DOES are filed directly with the
District of Columbia Court of Appeals. The Superior
Court’s only role in CMPA compensation claims is to
consider liens filed against the District.” See D.C.
Code §1-623.24(g).

2 D.C. Code §§2-1401.01 to - 1403.17 (2012) Repl).

App. h
Ms. Jackson proceeded to file a “notice of lien”
against both the District and District of Columbia
Housing Authority for more than $7 million.3 At a
pretrial conference on July 23, 2013, the Superior
Court granted the District’s motion to strike the lien
on basis of the previous order of dismissal and Ms.
Jackson’s failure to follow CMPA administrative
procedures before seeking judicial relief. During the
hearing, the court also heard argument on and
granted the defendants’ motion in limine to preclude

3 This alleged amount included annual workers’
compensation benefits from the date of her
termination until her projected retirement date,
cost-of-living increases “[cjurrent and future medical
expenses” (estimated at $5 million), and more than
two hundred hours of continuation of pay.

App. i
any evidence regarding the workers’ compensation
claims that had been dismissed. The court went on
to limit witness testimony that would be irrelevant
or cumulative, striking witnesses for whom Ms.
Jackson could provide only speculative proffers.4
A jury trial began on November 18, 2013.5 On
November 25, 2013, the jury returned a verdict for

4 Ms. Jackson had originally listed seventeen
witnesses, not including “[a] 11 witnesses listed by
[the Housing Authority] and the District.”

5 A day after trial started, the court dismissed the
only remaining claim against the District—aiding
and abetting discrimination and retaliation—after
Ms. Jackson’s attorney conceded that there was no
evidence to support such a claim.

App. j
the Housing Authority, finding that Ms. Jackson
failed to “prove [ ] by a preponderance of the evidence
that engaging in a protected activity was a
substantial factor in [the Housing Authority’s]
decision to terminate her[.]” This appeal followed.
II. Analysis
A.

Workers’ Compensation Claims and
Notice of Lien

Ms. Jackson argues that the Superior Court
erred in dismissing her workers’ compensation
claims for lack of jurisdiction.6 She also contends

6 This court reviews de novo the trial court’s decision
granting a motion to dismiss for lack of subject
matter jurisdiction. See Grayson v. AT&T Corp., 15
A.3d 219, 228 (D.C. 2011) (en banc).

App. k
that the trial court erred in declining to enforce a
lien filed under D.C. Code § 1-623.24 (g).
The CMPA governs workers’ compensation
claims for District of Columbia employees, providing
compensation for an employee’s disability “resulting
from personal injury sustained while in the
performance of his or her duty.” D.C. Code § 1623.02 (a) (2012 Repl.). The CMPA was designed as
“a mechanism for addressing virtually every
conceivable personnel issue among the District, its
employees, and their unions—with a reviewing role
for the courts as a last resort.” District of Columbia
v. Thompson, 593 A.2d 621, 634 (D.C. 1991). The
statute’s workers’ compensation scheme expressly
extends to Housing Authority employees like Ms.
Jackson. See D.C. Code § 6-215 (a)(3) (providing that
the CMPA’s workers’ compensation provisions

App. 1
“shall continue to apply to Authority employees”
unless and until the Housing Authority “change[s]
from the public to the private sector workers’
compensation program”).
The CMPA prescribes certain procedures that
covered employees must use when seeking
compensation for workplace injuries. An injured
employee must provide notice of the injury to her
supervisor within thirty days after the injury occurs
and then file a claim for disability compensation.
See D.C. Code § § 1-623.19 (a), 1-623.21. Within
thirty days of the claims filing, the Public Sector
Workers Compensation Program must make
findings of fact on the claim followed by “an award
for or against payment of compensation.” D.C. Code
§ 1-623.24 (a). If the Program fails to make a
determination within thirty days, “the claim shall be

App. m
deemed accepted,” and the Mayor “shall commence
payment of compensation.” D.C. Code § 1-623.24 (a3)(1). A claimant who disagrees with the
determination may request a hearing before a DOES
ALJ within thirty days. D.C. Code § 1-623.24 (b)(1).
If the claimant disagrees with the ALJ’s decision at
the hearing, she may file an application for review
with the Compensation Review Board within thirty
days of the decision. D.C. Code § 1-623.28 (a). The
claimant may seek review of the Board’s decision by
filing an application for review with the Court of
Appeals within thirty days. D.C. Code § 1-623.28
(b). If the Program “fails to make payments of the
award for compensation as required,” the claimant
“may file with the ‘Superior Court of the District of
Columbia a lien against the Disability Compensation
Fund, the General Fund of the District of Columbia,

App. n
or any other District fund or property to pay the
compensation award.” D.C. Code § 1-623.24 (g).
Here, Ms. Jackson properly filed her workers’
compensation claim with the Public Sector Workers’
Compensation Program, and the Program accepted
her claim as to some injuries but denied it for others.
The Program then made an award that included
compensation for certain approved medical expenses
and a possible continuation of pay. Ms. Jackson
appealed this decision to DOES, filing an application
for a formal hearing. The ALJ dismissed Ms.
Jackson’s request for a hearing because there was
“no genuine controversy” to adjudication in light of
Ms. Jackson’s continued receipt of benefits. Rather
than comply with the CMPA’s procedures and appeal
this decision to the Compensation Review Board,
however, Ms. Jackson brought an action in Superior

App. o
Court seeking an injunction requiring payment of
additional workers’ compensation benefits. As the
trial court properly recognized, the CMPA
“establishes [Ms. Jackson’s] exclusive remedy” for
workers’ compensation claims, and “[t]he Superior
Court’s only role in CMPA compensation claims is to
consider liens filed against the District under D.C.
Code § 1-623.24 (g).
Ms. Jackson contends that the trial court
erred in granting the motion to strike lien, arguing
that the court “should have applied the plain
language of the CMPA or applied its humanitarian
purpose to grant a lien and order compensation for
the unpaid compensation award.” But the District
points out, Ms. Jackson failed to identify any unpaid
compensation award that would be enforceable in
the Superior Court under D.C. Code § 1-623.24 (g).

App. p
To the extent Ms. Jackson claims unpaid
compensation in connection with the April 2011
notice of determination, that notice awarded benefits
different from the compensation sought in her
Superior Court complaint (temporary total disability
benefits) or the subsequently filed notice of lien
(permanent total disability benefits). In this regard,
Ms. Jackson’s lien did not seek to enforce any unpaid
compensation to which she was entitled under the
April 2011 notice. And to the extent that Ms.
Jackson argues that her disability claim was
“deemed accepted” under D.C. Code § 1-623.24 (a3)(1)—thereby entitling her to disability benefits
that went unpaid—-because the Workers’
Compensation Program failed to make a
determination within thirty days, the April 2011
notice of determination would have extinguished any

App. q
right Ms. Jackson had to unpaid compensation. See
D.C. Code § 1-623.24 (a-3)(2) (providing that “[i]f
after commencement of payment, the Mayor makes a
determination against payment of compensation,
payment shall cease,” and stating that “the Mayor or
his or her designee may recoup benefits under § 1623.29”). In sum, the Superior Court did not err in
declining to enforce Ms. Jackson’s lien.
B.

Remaining Claims

Ms. Jackson also advances several additional
claims, none of which has merit. First, she argues
that the trial court erred in striking certain
witnesses from the District and the Housing
Authority whose testimony Ms. Jackson wanted to
present at trial. Ms. Jackson provided only vague
and conclusory proffers about the proposed
testimony of these witnesses, however, as she failed

App. r
to specify how such testimony would bear on the
relevant issues in the case. The trial court therefore
did not abuse its discretion in striking the witnesses.
See Clark v. Bridges, 75 A.3d 149, 156 (D.C. 2013)
(finding no abuse of discretion where the trial court
“excluded evidence after landlord’s counsel failed to
explain how that evidence had any relevance to
either issue being tried”).
Ms. Jackson next argues that the trial court
erred in dismissing her D.C. Human Rights Act
claims against the District for retaliation. At trial,
however, Ms. Jackson’s counsel acknowledged that
the evidence did not support the retaliation claim on
any ground other than the alleged withholding of
workers’ compensation benefits, and the court
viewed Ms. Jackson’s proffers as “representations
based upon speculation that some witness who was

App. s
present for a meeting might have information that
would establish a claim.” The trial court therefore
concluded that dismissal was proper under either
Super. Ct. Civ. R. 41 (a) or R. 50 (a) because “there’s
no evidence that will implicate the District of
Columbia either by a separate act of retaliation or by
aiding and abetting in any actions taken by the
[Housing Authority].” We discern no error.
Finally, Ms. Jackson contends that the trial court
erred in giving jury instructions that failed to
explain that a plaintiff bringing retaliation or
discrimination claims need not show that the
improper motive was the sole motive behind the
adverse action. As an initial matter, Ms. Jackson
never objected to the jury instructions at trial. And
in any event, the trial court gave the standardized
civil jury instructions, which make clear-consistent

App. t
with this court’s case law, see e.g., Propp v.
Counterpart Int’l, 39 A.3d 856, 870 (D.C. 2012)-that
Ms. Jackson’s protected activity need only be “a
substantial contributing factor” to the adverse
action. With respect to Ms. Jackson’s other
challenges to the jury instructions, we are not
persuaded that the standard instructions were
inadequate, that the trial judge’s failure to sue
sponte instruct the jurors caused significant
confusion, or that Ms. Jackson was prejudiced by
such confusion.
III.

Conclusion

For the foregoing reasons, the judgment of the
Superior Court is affirmed.
ENTERED BY DIRECTION OF THE COURT
Julio A. Castillo
Clerk of the Court

